COCKLE

2311 Douglas Street A E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B i ve fs contact@cocklelegalbriefs.com
9
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-303

UNITED STATES OF AMERICA,
Petitioner,
Vv.
JOSE LUIS VAELLO-MADERO,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify. that the BRIEF OF THE
COMMONWEALTH OF PUERTO RICO AS AMICUS CURIAE IN SUPPORT OF
RESPONDENT in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 8152 words, exchiding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of September, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

ee ROTARY-State of Nebraska & 2 Z 4,
RENEE J. GOSS 9. ( Lee dreaur “

Notary Public Affiant

41377
